 Date:              June 1,2000

 To:                File No. I99 110044

 From:                                    ,Special Agent
                                                 Scientist

Via:            ,-                   Assistant Inspector General for Investigations

Re:


Backeround

                     (the complainant)' contacted NSF/OIG on 3 November 1999 alleging Dr.
                               misappropriated NSF grant funds to pay himself salah. The
                              and Principal Investigator (PI) of an NSF award.' The
complainant also alleged the subject misappropriated funds from the complainant's brivate
foundation. The complainant's allegations regarding NSF funds were based on his July 1999
                                                                                   il
conversations with Ms.                                             . On 16 November   1999 we
contacted the complainant for lunher detail about the allegatiwlated   to the NSF d h d .
                                                                                           11



                                hte-and                 th
                                  Charities regarding the


Investigation

Late November 1999, we c o n t a c t e m a t home to discuss her role a t u a n d i a s k e d her if
she noticed any unusual financial activities. She told us that she has since resigned-
performed limited bookkeeping of financial records and claimed not to know of any,,unusual
transactions. Subsequently, she stated that she noticed large sums transferred to savings or an
                                                                                       /


q
                                                                                       I

         e omplainant is a former:


                    1,                                                                          11/99 -
2/29/00, $ 9,868.
                                                                                              loseout
                                                                                               lOf2

 individual payment to her employer (the subject) in the amount of about $12,000. She, however,
 thought the payment could have been reimbursement for expenditures.

 On 9 December 1999, we requested, via phone and electronic e-mail, account summaries and
 source documents kom the subject for NSF award          1 to conduct a review of expenses. We
 received the requested materials 29 December 1999, which included expenses from thk June
 1999 Conference.

 On 16 February 2000, we completed our review of the requested materials and uncovered no
 questionable or unallowable charges. Additionally, we reviewed documents received fiom the
 complainant, which included an acciunt summary of          expenses and bank stateAents. The
 documents were irrelevant tq,the review of NSF expenditures.

On 3 April 2000, we gathered the details from
            of the impending May
            We confirmed on 4
             use of the remaining funds.



-
complainant's allegation had not 1 d to    'nvestigation by his office. On 7 April 2000, we
confirmed via telephone horn M       r    u that they were not investigating the subject.

In S tember 2000, we reviewed new allegations fi-om the complainant which c l a i r n e d r t h m
&ad       used 560,000 of NSF funding to purchase equipment. A review of his expenditures
                          money to fund a conference, and that no equipment was purchased. In
addition,              the program officer, indicated that she had approved the transfer of
leftover conference funds to this year's conference budget.

Findings
